No. 20-1069

 

 

IN THE

Supreme Court of the United States

JANSSEN PHARMACEUTICALS, INC.,
JOHNSON & JOHNSON COMPANY, AND
JANSSEN RESEARCH AND DEVELOPMENT, LLC,

Petitioners,
Vv.
AY., et al.,
Respondents.

On Petition for Writ of Certiorari to the
Supreme Court of Pennsylvania

BRIEF OF THE NATIONAL ASSOCIATION OF
MANUFACTURERS AND INTERNATIONAL
ASSOCIATION OF DEFENSE COUNSEL
AS AMICI CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,330 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 8, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
